VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Health 

                                                                    Administration 

                                                                      Follow-Up Audit 

                                                                     of VHA’s Workers’ 

                                                                       Compensation 

                                                                     Case Management 





                                                                                        July 7, 2014
                                                                                       11-00323-169
             ACRONYMS AND ABBREVIATIONS

DOL          Department of Labor
FECA         Federal Employee Compensation Act
FY           Fiscal Year
OIG          Office of Inspector General
OWCP         Office of Workers’ Compensation Programs
VA           Veterans Affairs
VHA          Veterans Health Administration
VISN         Veterans Integrated Service Network
WCP          Workers’ Compensation Program




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                    Report Highlights: Follow-Up Audit of
                    VHA’s Workers’ Compensation Case
                    Management

Why We Did This Audit                            initiation and $83.3 million by increasing
                                                 efforts to return medically able staff to work.
VA’s Workers’ Compensation Program               In total, opportunities exist for VHA to
(WCP) provides compensation and medical          reduce WCP costs by about $95.2 million
rehabilitation for injured employees. The        with improved claims management. We
Veterans Health Administration (VHA)             also identified $2.3 million in unrecoverable
expenditures comprise about 93 percent of        payments due to VHA’s lack of oversight to
the total $202 million. In this follow-up        return medically able employees to work.
audit, we determined whether VHA
improved WCP case management to better           What We Recommended
control costs in chargeback year 2012,
which represented the most current audit         We recommended the Acting Under
data available at the time we began work.        Secretary for Health ensure clear oversight,
                                                 standard guidance, adequate staffing, and
What We Found                                    fraud detection procedures to improve
                                                 VHA’s WCP case management.
We identified issues with claims initiation
and monitoring similar to those disclosed in     Agency Comments
our 2004 and 2011 audit reports.
Specifically, WCP case files lacked initial or   The Acting Under Secretary for Health
sufficient medical evidence to support           concurred     with    our     findings   and
connections between claimed injuries and         recommendations and plans to complete all
medical diagnoses. We estimated VHA              corrective actions by May 29, 2015. We
inaccurately initiated about 56 (7 percent) of   consider these planned actions acceptable
793 WCP claims. WCP claims also were             and will follow up on their implementation.
not consistently monitored to timely return
employees to work. VHA WCP specialists
did not make job offers or take actions to
detect     fraud.           We      projected
489 (61.7 percent) of 793 active claims were
inadequately monitored.

These issues occurred because VHA still
                                                           LINDA A. HALLIDAY
lacked standard guidance and a clear chain
                                                        Assistant Inspector General
of command to ensure compliance with
                                                        for Audits and Evaluations
WCP statutory requirements and VA policy.
VHA also lacked a fraud detection process.
Overall, we estimated VHA can reduce
WCP costs over the next 5 chargeback years
by $11.9 million through improved claims
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding 1              VHA Needs To Accurately Initiate Workers’ Compensation Program

                           Claims .................................................................................................................2
 

                           Recommendations ...............................................................................................8
 

    Finding 2              Workers’ Compensation Program Case Monitoring To Return Employees 

                           to Work Needs Improvement ............................................................................10


                           Recommendations .............................................................................................17
 

Appendix A                 Background ...................................................................................................... 19


Appendix B                 Scope and Methodology................................................................................... 21
 

Appendix C                 Statistical Sampling Methodology ................................................................... 23
 

Appendix D                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments ..................................................................................................... 29
 

Appendix E                 Acting Under Secretary for Health Comments ................................................ 30
 

Appendix F                 Office of Inspector General Contact and Staff Acknowledgments .................. 37
 

Appendix G                 Report Distribution........................................................................................... 38
 
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management



                    INTRODUCTION
Objective           The Office of Inspector General (OIG) conducted this follow-up audit to
                    verify implementation of recommendations from prior audits of the Workers’
                    Compensation Program (WCP). Specifically, our objective was to determine
                    whether the Veterans Health Administration (VHA) has improved case
                    management since our 2011 audit to ensure that WCP claims are
                    well-substantiated, employees are returned to work when they are medically
                    able, and compensation benefits are properly paid.

WCP                 The Department of Labor (DOL) Office of Workers’ Compensation
Responsibilities    Programs (OWCP) administers the WCP for all Federal agencies. After
                    claims adjudication, OWCP uses its Employees’ Compensation Fund to pay
                    the claimants’ medical expenses and compensation benefits. Then it bills
                    each agency annually through a chargeback report. The chargeback year
                    covers the time period of July 1 of the previous year through June 30 of the
                    current year. Employing agencies manage all cases listed on the chargeback
                    report. Further, OWCP identifies reemployment opportunities to assist
                    agencies in returning their claimants to work when they are medically able.

                    Within VA, the Assistant Secretary for Human Resources and
                    Administration has broad responsibility for WCP policy development and
                    oversight. VHA workers’ compensation specialists execute the policy by
                    initiating claims and managing cases from the time of employee injury up to
                    the point of claims adjudication by OWCP. Upon claims adjudication, the
                    specialists maintain WCP case files, assess medical evidence, and make job
                    offers to return employees to work when possible.

Related OIG         In five prior audits, we reported enhanced case management could reduce
Reviews             VA’s WCP costs and risks for fraud and abuse. In our two most recent
                    reports, Follow-Up Audit of Department of Veterans Affairs Workers’
                    Compensation Program Costs (Report No. 02-03056-182, August 13, 2004)
                    and Audit of Workers’ Compensation Case Management (Report No.
                    10-03850-298, September 30, 2011), VA inaccurately initiated claims and
                    missed opportunities to make job offers. VA lacked the medical evidence
                    necessary to support continuation of benefits to employees. We also
                    identified instances of potential fraud. We recommended VA increase its
                    oversight processes, dedicate resources, and take actions to reduce fraud risk.

Other                  Appendix A provides background information.
Information
                       Appendix B provides details on our scope and methodology.
                       Appendix C provides our sampling methodology.




VA Office of Inspector General                                                                    1
                                  Follow-Up Audit of VHA’s Workers’ Compensation Case Management



                    RESULTS AND RECOMMENDATIONS
Finding 1           VHA Needs To Accurately Initiate Workers’
                    Compensation Program Claims

                    VHA did not accurately initiate WCP claims. We estimated VHA
                    inaccurately initiated about 56 (7 percent) of 793 WCP active claims
                    between July 2004 through June 2012. We found that WCP case files lacked
                    initial or sufficient medical evidence to support connections between claimed
                    injuries and diagnoses on medical reports. This occurred because VHA did
                    not have a clear chain of command with delegated authorities and
                    responsibilities to enforce WCP statutory requirements and VA policy for
                    ensuring sufficient initial medical evidence existed to substantiate claims.

                    In our 2011 audit report, we discussed this same issue, but VHA did not
                    implement our recommendation to establish a structure with clear reporting
                    lines. VHA officials believed it is each Veterans Integrated Service
                    Network’s (VISN) responsibility to determine the best approach to
                    overseeing and enforcing WCP policy. We also recommended in 2011 that
                    VHA establish WCP case file documentation standards so that specialists
                    ensure all case files are complete. In November 2012, VHA responded that
                    they were developing additional workers’ compensation guidance. VHA
                    issued a supplemental guidebook in July 2013, but it still did not establish
                    case file documentation standards.

                    As a result of these continuing issues, VHA runs the risk of paying
                    unnecessary costs for inaccurately initiated claims. Based on our results, we
                    estimated that due to payments associated with inaccurate claims initiation in
                    chargeback year 2012, VHA could have put annual compensation payments,
                    totaling $2.4 million, to better use. If claims initiation procedures are not
                    strengthened, we projected that VHA could continue making questionable
                    payments over the next 5 chargeback years, valued at about $11.9 million.

Claims              Claims initiation begins when an employee reports an injury sustained during
Initiation          the performance of duty either through a supervisor or directly to a VHA
Process
                    workers’ compensation specialist. According to OWCP Publication CA-810,
                    Injury Compensation for Federal Employees, the VHA workers’
                    compensation specialist must then submit the employee-completed WCP
                    compensation form (CA-1 for traumatic injury or CA-2 for occupational
                    disease) to OWCP. Per Federal regulations, the specialist can submit the
                    completed WCP compensation form with or without supporting evidence to
                    promote timely submission of claims.1


                    1
                     Code of Federal Regulations, Title 20, Part 10, Claims for Compensation Under Federal
                    Employees Compensation Act, as amended, Section 10.110.


VA Office of Inspector General                                                                           2
                                    Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                      Table 1 provides the five elements needed to establish a valid WCP claim.

        Table 1. Five Elements To Establish a Workers’ Compensation Program Claim
                 Element                                         Description
                                     The employee timely filed the claim with WCP staff by
     Timely Filing                   providing the employee compensation form within 3 years of
                                     the date of injury.

     Civil Employee                  The individual is a civilian Federal employee.

                                     The claimant actually experienced the accident and the
     Fact of Injury
                                     medical condition connected with the event.
                                     The employee sustained the injury in the performance of duty
     Performance of Duty
                                     as alleged.
                                     The work-related injury is connected to the specific condition
     Causal Relationship
                                     for which compensation is claimed.
      Source: Publication CA-810, Chapter 3, “Conditions of Coverage”

                      The VHA workers’ compensation specialist reviews the WCP compensation
                      form to determine whether the claim is complete and accurate. If any of the
                      five elements are lacking, the specialist should challenge the validity of the
                      claim. The specialist should submit claims forms, such as the CA-1 or CA-2,
                      and a statement to OWCP specifically describing why he or she disagrees
                      with the claim and providing evidence to support that position. Generally,
                      the specialist can establish the first four elements of a claim using the
                      employee-completed WCP compensation form. However, within 30 days of
                      OWCP’s request for additional information, the employee must provide
                      supplemental medical evidence to OWCP, either directly or through the
                      specialist, to establish a causal relationship.

Inaccurate            We estimated that VHA did not accurately initiate 56 (7 percent, totaling
Initial Claims        $2.4 million) of the 793 WCP claims active from July 2004 through
Management
                      June 2012. Of the five elements required to establish a claim, the specialists
                      most frequently made errors in establishing a causal relationship between an
                      employee’s injury and the specific condition for which the employee claimed
                      compensation. The only way to establish a causal relationship is through
                      sufficient medical evidence provided by the employee’s treating physician.

                      CA-810, Injury Compensation for Federal Employees, requires that VHA
                      use initial medical evidence to establish a causal relationship for a claim.
                      The handbook also requires that specialists maintain copies of claim forms,
                      medical reports, OWCP correspondence, and related materials in each WCP
                      case file.     Furthermore, Title 20, Code of Federal Regulations,
                      Part 10.330 states sufficient initial medical evidence to establish a causal
                      relationship should include:



VA Office of Inspector General                                                                        3
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    	 Medical examination and treatment dates
                    	 Medical history provided by the employee
                    	 Diagnosis and course of treatment
                    	 Treating physician’s medical opinion
                    	 Prognosis for recovery

                    Specialists did not consistently include such medical evidence in the WCP
                    case files or ensure the evidence provided was sufficient to initiate claims.
                    Maintaining a complete WCP case file with sufficient initial medical
                    evidence is critical to helping VHA workers’ compensation specialists
                    identify inconsistencies in comparison with updated medical evidence over
                    the life of a claim. Specialists responsible for managing WCP case files
                    could not explain why files established prior to their appointments lacked
                    sufficient initial medical evidence to substantiate that claimants warranted
                    benefits for injuries sustained in the performance of duty. Moreover, some
                    specialists stated they did not think it was their responsibility to ensure that
                    initial medical evidence was sufficient to establish a valid claim; instead,
                    they believed it was DOL’s responsibility. Further, a specialist said that if
                    DOL OWCP accepted a claim and paid compensation benefits to the injured
                    worker, then the claimant must have submitted initial medical evidence to
                    DOL OWCP.

                    The lack of sufficient initial medical evidence should result in a specialist
                    disputing the validity of a claim to DOL OWCP, typically through a memo
                    referred to as an agency position letter. VA has compiled best practices to
                    assist specialists with identifying and challenging questionable claims. For
                    example, VA’s best practice training course suggests specialists should
                    obtain and review medical reports to validate that they include causal
                    relationships. If a specialist notes that a causal relationship does not exist,
                    the specialist should question the validity of the claim and develop an agency
                    position letter.

                    In spite of the guidance provided by VA, specialists did not always submit
                    agency position letters to DOL OWCP to challenge the validity of claims.
                    The treating physicians’ medical reports also did not always substantiate
                    causal relationships between the claimed work-related injuries and the
                    identified medical conditions. The following two examples illustrate this
                    point:

                    	 An employee filed a claim for a knee and lower leg injury. The claimant
                       alleged a fall on the face and knee an hour and a half prior to the
                       employee’s tour of duty. According to the CA-1, the employee was not
                       injured while in the performance of duty. The treating physician’s
                       medical reports stated the employee fell on uneven pavement and injured
                       the left knee, right hand, and right side of the face. The medical reports


VA Office of Inspector General                                                                     4
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                        did not include a medical opinion that a connection existed between the
                        work-related injury and claimed conditions. In 2012, the employee
                        received about $45,000 in questionable compensation benefits.
                    	 An employee filed a claim for a sprained knee. The claimant was holding
                       a door open with their buttocks so they could pull a patient, who was in a
                       wheelchair, through the door. Initial medical documentation did not
                       include a medical opinion that a connection existed between the
                       work-related injury and the sprained knee. In 2012, the employee
                       received $49,000 in questionable compensation benefits.

                    In our 2011 audit, we reported that VHA had not developed standard dispute
                    procedures.      We specifically recommended that VHA develop and
                    implement standard procedures for VA to question the validity of claims
                    lacking adequate supporting evidence. In November 2012, VHA responded
                    they were updating the workers’ compensation guidance. VHA issued the
                    guidebook in July 2013. Although the guidebook included a sample dispute
                    letter template to aid specialists when questioning an invalid claim, VHA did
                    not ensure that the specialists follow the guidebook and use the template. As
                    such, the issuance of the guidebook did not fully address our
                    recommendation.

Lack of             VHA still lacks a clear chain of command and oversight for ensuring
Oversight To        accurate claims initiation. We first reported this weakness in 2011. At that
Ensure
Accurate
                    time, we recommended the Under Secretary for Health establish clear
Claims              reporting lines with delegated authority for overseeing and enforcing
Initiation          Workers’ Compensation Program policy; however, this has not been
                    addressed.

                    VA’s Assistant Secretary for Human Resources and Administration provided
                    VA administrations with WCP policy generally aligned with Federal
                    Employee Compensation Act (FECA) requirements. A VA WCP program
                    manager within Human Resources and Administration oversees VA-wide
                    policy development. Within VHA, the Deputy Under Secretary for Health
                    for Operations and Management is responsible for ensuring the effective
                    execution of that WCP policy direction.

                    During our 2011 audit, VA’s Federal WCP manager informed us that the
                    VHA Office of Occupational Health was tasked with overseeing WCP
                    operations and ensuring compliance with policy requirements.              In
                    March 2013, VHA hired a national WCP manager, within the Office of
                    Occupational Health, to perform WCP oversight and policy enforcement.
                    However, the VHA national WCP manager falls under the Deputy Under
                    Secretary for Health for Policy and Services, not the Deputy Under Secretary
                    for Health for Operations and Management. The national WCP manager is
                    not in the direct line of supervision over specialists responsible for




VA Office of Inspector General                                                                  5
                                  Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    day-to-day WCP case management operations. Generally, facilities under the
                    VISN Directors have responsibility for WCP oversight.

                    Figure 1 illustrates the organizational structure for WCP oversight.

  Figure 1. VHA’s Workers’ Compensation Supervisory Chain of Responsibilityof Non-Product
                                   and Product Lines




                                                                                                    
  Source: VHA National Workers' Compensation Program Manager as of May 2011 




VA Office of Inspector General                                                                 6
                                  Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                                    Acronym List for Figure 1

            Acronym                                     Definition
          ADUSH            Assistant Deputy Under Secretary for Health
          DAS              Deputy Assistant Secretary
          DUSHOM           Deputy Under Secretary for Health for Operations and Management
          DUSHPS           Deputy Under Secretary for Health for Policy and Services
          OSH              Occupational Safety & Health
          HR&A             Human Resources and Administration
          HRO              Human Resources Officer
          PDUSH            Principal Deputy Under Secretary for Health
          USH              Under Secretary for Health
          VA               Veterans Affairs
          VHA              Veterans Health Administration
          VISN             VA Integrated Service Network
          WCP              Workers’ Compensation Program

                    Direct daily oversight to the specialists is provided through two chains of
                    command under the VHA VISN Directors. VHA’s WCP organizational
                    structure consists of two structural alignments—a non-product line VISN and
                    a product line VISN—to identify VHA’s WCP supervisory chain of
                    responsibility. Within the non-product line structure, facility human resource
                    officers manage and directly supervise the specialists. The human resource
                    officer directs all work for the specialists and has the authority to task the
                    specialists with multiple human resource activities, such as finger printing or
                    safety officer duties. In contrast, the product line structure identifies the
                    VISN WCP coordinator as the specialists’ direct supervisor so their work is
                    limited to WCP case management. VHA officials stated they were not
                    surprised with the discrepancies we identified and recognized the need to
                    conduct an assessment to determine the most effective WCP oversight
                    approach.

Conclusion	         Accurate claims initiation is the first step in the WCP process and is
                    important to ensure VHA is paying valid claims in an expeditious manner.
                    Similar to the results in our 2011 audit report, until VHA ensures case files
                    are complete with sufficient initial medical evidence to substantiate claims,
                    VA runs the risk of making unnecessary payments when funds could be put
                    to better use. Based on our sample results, we estimated that for 56 WCP
                    claims in chargeback year 2012, valued at $2.4 million in annual


VA Office of Inspector General                                                                   7
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    compensation, funds could have been put to better use when initial medical
                    evidence was missing or insufficient. Over the next 5 chargeback years, we
                    project that VHA could put $11.9 million to better use if missing case file
                    documentation is obtained or sufficient medical evidence is available to
                    support eligibility for receiving these benefits.

                    Recommendations

                    1.	 We recommended the Acting Under Secretary for Health establish
                        Workers’ Compensation Program case file documentation standards so
                        that specialists ensure case files are complete (repeat recommendation
                        from the 2004 and 2011 VA Office of Inspector General audit reports).

                    2.	 We recommended the Acting Under Secretary for Health establish a
                        directive mandating Workers’ Compensation Program specialists
                        implement the workers’ compensation guidebook to ensure specialists
                        question the validity of claims lacking adequate supporting evidence.

                    3.	 We recommended the Acting Under Secretary for Health establish a
                        structure with a clear chain of command to ensure workers’
                        compensation compliance with case management requirements,
                        oversight, and policy enforcement.

Management          The Acting Under Secretary for Health concurred with our findings and
Comments            recommendations and plans to complete all corrective actions by
                    May 29, 2015. VHA published a guidebook that identifies how to establish a
                    six-part case file and question the validity of claims. VHA’s National WCP
                    manager also trained facility WCP staff on case file management and
                    maintenance. The training focused on case file documentation standards and
                    how to store the appropriate documents in the six-part case file. VHA is
                    planning to train facility WCP staff on the processes needed to evaluate the
                    validity of claims and how to challenge the five elements of a claim.

                    In addition, to help ensure the case files are complete, VHA is in the process
                    of developing a standardized case file review checklist. The checklist will
                    provide facility WCP staff with a better understanding of required case file
                    documentation and recording of documents as they are placed in the six-part
                    case file. VHA also plans to draft a directive with VA Office of General
                    Counsel approval that ensures procedures for evaluating and appropriately
                    challenging the validity of claims become official program requirements.

                    Lastly, VHA’s National WCP manager will coordinate with the Office of the
                    Deputy Under Secretary for Health for Operations and Management to
                    develop a memorandum, to be submitted to VISN and facility directors,
                    mandating implementation of the VHA guidebook. The memorandum will
                    include a requirement to ensure that specialists question the validity of
                    claims that lack adequate supporting evidence. Finally, the memorandum


VA Office of Inspector General                                                                   8
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    will identify VHA National WCP’s roles and responsibilities specific to
                    policy development, communication, training, program oversight, and
                    compliance enforcement.




VA Office of Inspector General                                                                9
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


Finding 2 	         Workers’ Compensation Program Case Monitoring To
                    Return Employees to Work Needs Improvement

                    VHA did not always monitor WCP claims to return employees to work when
                    they were medically able. They also did not implement a process to identify
                    fraud. We estimated VHA did not adequately monitor 489 (61.7 percent,
                    totaling $16.7 million) of the active 793 WCP cases to return employees to
                    work when they were medically able. Specialists did not maintain case files
                    with required updated medical documentation, along with earnings and
                    dependency information useful in determining whether employees should
                    continue to receive WCP benefits.

                    Similarly, VHA lacked a chain of command with clear lines of authority and
                    responsibility for ensuring standard WCP case management practices and
                    enforcing policy requirements. VHA specialists did not always make job
                    offers to claimants who were able to return to work because staff
                    misinterpreted WCP requirements. VHA also did not dedicate sufficient
                    resources to monitor cases and return medically able claimants to work as
                    soon as possible.

                    We reported this same finding in our 2011 audit and recommended that VHA
                    implement oversight mechanisms and documentation standards to ensure
                    WCP case files are complete. Further, we recommended that VHA ensure
                    job offers are made to medically able employees and facility directors assign
                    adequate staff to manage WCP cases. We also made recommendations in
                    our 2004 report to address the same case monitoring weaknesses. When
                    asked about actions to address this recommendation, VHA officials told us
                    they were updating the workers’ compensation guidance. VHA issued the
                    guidebook in July 2013, but it still did not address our recommendations.

                    Moreover, we discovered cases indicative of potential fraud. During our
                    2011 audit, VA stated that it deferred establishing a fraud detection and
                    referral process, viewing it as too time-consuming for already overworked
                    staff.    We recommended that VHA develop and implement fraud
                    identification and referral procedures. According to a VHA official, as of
                    October 2013, the administration still had not established a fraud detection
                    and referral process because VHA was trying to fill its workers’
                    compensation national WCP manager position. The establishment of fraud
                    identification and referral procedures should not be dependent on filling one
                    management position.

                    Until VHA establishes adequate case management oversight to return
                    employees to work and fraud detection processes, it risks incurring erroneous
                    costs for ineligible claimants. We projected that due to inadequate WCP
                    case monitoring and failure to remove medically able employees from the
                    WCP rolls, $16.7 million in VHA costs could have potentially been put to



VA Office of Inspector General                                                                10
                                  Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    better use during chargeback year 2012. We projected that continued
                    improper payments for these claims over the next 5 years could
                    reach $83.3 million.

Monitoring          VA Directive 5810 requires VHA’s workers’ compensation specialists to
Process             monitor cases from the time of injury until employees return to full duty.
                    WCP case monitoring involves ensuring staff:

                    	 Maintain complete case files with supporting evidence, such as periodic
                       medical reports, the “Latest Earnings and Dependency Information”
                       forms (EN-1032), and other information from OWCP or the injured
                       employees to determine whether an employee is capable of returning to
                       work.
                    	 Make job offers to employees when they are released to return to work.
                    	 Assess WCP case files for red flag indicators to detect fraud, such as high
                       compensation, while the claimant’s information supports little or no
                       medical costs incurred.

                    A range of guidance is available to support case monitoring. Per Federal
                    regulations, VHA may obtain periodic medical reports from DOL OWCP,
                    the treating physician, or the claimant, depending on the case status.2
                    OWCP determines case status, which dictates the frequency (annually or
                    every 2 or 3 years) that a claimant is required to have a medical examination
                    and submit the related medical report to OWCP. VA’s WCP best practices
                    guidance and VA OIG’s Handbook for VA Facility Workers’ Compensation
                    Program Case Management and Fraud Detection (Report No.
                    9D2-G01-064, April 14, 1999) provide guidance for VHA specialists
                    regarding WCP case file monitoring and fraud detection.

Incomplete          We estimated 455 (57.4 percent, totaling approximately $15.4 million) of
Case Files          793 of VHA’s WCP case files were incomplete.              VHA workers’
                    compensation specialists did not always obtain the updated medical reports
                    or earnings and dependency forms needed to assess claimants’ work
                    capacity. This occurred because of a lack of clear oversight and standards
                    for effective case monitoring. Again, incomplete case files were also an
                    issue noted in our 2004 and 2011 WCP audits.

Updated             We estimated VHA workers’ compensation specialists did not request
Medical             updated medical reports in 125 of the 455 cases, totaling $3.8 million paid in
Evidence Not        chargeback year 2012. In our 2011 audit, we recommended that VHA
Requested           implement oversight mechanisms and documentation standards to ensure
                    WCP case files are complete with up-to-date medical evidence. VHA
                    officials told us they were updating the workers’ compensation guidance as a

                    2
                     Code of Federal Regulations, Title 20, Part 10, Claims for Compensation Under Federal
                    Employees Compensation Act, as amended, Section 10.506.


VA Office of Inspector General                                                                         11
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    corrective action; however, when issued, the guidebook did not satisfy the
                    recommendation we closed upon receipt of an acceptable implementation
                    plan. The lack of updated medical reports hampered specialists’ ability to
                    timely return medically able employees to work. Examples to illustrate this
                    issue follow.

                    	 An employee filed a mental stress claim for severe depression and
                       post-traumatic stress disorder. No evidence was in the file for 4 years to
                       support a determination as to whether the employee could return to work
                       because the specialist stopped monitoring the case. The specialist
                       informed us that she thought the claimant had retired. In response to our
                       questions, a specialist conducted follow-up and learned that the claimant
                       had not retired and was not receiving Office of Personnel Management
                       retirement benefits. Rather, the claimant was still out of work and
                       continued receiving OWCP benefits. As a result, the specialist took
                       action to request updated medical information to determine whether the
                       benefits should continue. In chargeback year 2012, the claimant received
                       about $33,000 in questionable compensation benefits.
                     	 An employee filed a claim for a shoulder injury. No medical evidence
                        was in the file for 5 years to support a determination as to whether the
                        employee could return to work. When we brought this to a specialist’s
                        attention, the specialist stated she only had enough time to process newer
                        cases; we found that she was the only specialist in a VHA medical center
                        with over 3,000 employees. In chargeback year 2012, the claimant
                        received about $50,000 in questionable compensation benefits.

                    Had specialists aggressively obtained periodic medical reports throughout
                    the life cycle of these claims, they could have potentially identified
                    opportunities to return medically able employees to work sooner and stopped
                    them from receiving WCP compensation benefits.

                    We estimated that 125 WCP cases, constituting chargeback year
                    2012 compensation payments of $3.8 million, were questionable because the
                    specialists did not obtain updated medical evidence. Left unaddressed, the
                    risks of making improper payments for these claimants over the next
                    5 chargeback years could reach $19 million.

EN-1032s Not        We estimated about 331 of VHA’s incomplete case files, totaling
Requested To        approximately $11.6 million, did not include the “Latest Earnings and
Aid Return to
Work
                    Dependency Information” form (EN-1032) beneficial to determine whether
Determinations      employees should continue to receive WCP benefits. Improper payments for
                    these claimants over the next 5 years could reach $57.8 million.

                    The EN-1032 form identifies whether a claimant is receiving additional
                    income, potentially identifying whether work capacity exists. FECA requires
                    that each claimant submit this completed form to DOL OWCP annually;



VA Office of Inspector General                                                                 12
                                  Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                     OWCP may suspend compensation payments for claimants who do not
                     comply.

                     Although VA does not require VHA workers’ compensation specialists to
                     obtain updated EN-1032s, we found some specialists were requesting the
                     forms from DOL OWCP because they recognized the forms could be
                     beneficial for effective WCP case management. According to another
                     specialist, VHA did not request the EN-1032 because DOL OWCP would
                     not always provide the form, citing that it was not VHA’s responsibility to
                     review the form. Ultimately, adopting a VHA-wide best practice to obtain
                     EN-1032s could provide specialists with information to assist in returning
                     claimants to work, potentially reducing WCP costs.

                     To exemplify the importance of obtaining an EN-1032, in one case, the form
                     identified that a WCP claimant was a company president and serving as a
                     tutor while collecting WCP compensation benefits. Because specialists did
                     not attempt to determine whether the claimant had work capacity, the
                     employee remained on VA’s chargeback rolls. With the information
                     provided on the EN-1032, specialists could have determined the employee
                     had the potential to return to work.

 Reasons for         As previously stated in Finding 1, VHA lacked a clear chain of command to
 Inadequate          effectively monitor WCP cases and enforce WCP policy compliance. VHA
 Monitoring          relied on the VISN WCP coordinators and the facility human resource
                     officers to oversee the specialists. Depending upon the VISN structure
                     employed at a particular VISN, human resources staff were not always fully
                     dedicated to managing WCP cases. Thus, the specialists did not always
                     monitor WCP cases or update files to ensure that employees were returned to
                     work as soon as they were medically able.

 Job Offers Not      We estimated VHA did not make job offers to return claimants to work
 Made                in 34 (4.3 percent, totaling $1.3 million) of the 793 WCP cases in our
                     universe for chargeback year 2012. Further, we estimated VHA paid
                     $2.3 million in compensation benefits during the previous decade for these
                     same claimants who should have been returned to work. A specialist did not
                     demonstrate the skills necessary to adequately apply the WCP requirements
                     and return claimants to work. Additionally, VHA lacked sufficient resources
                     to monitor case files so that medically able employees could be returned to
                     work. We previously reported VHA was not ensuring job offers to staff
                     deemed medically fit as an issue in our 2004 and 2011 audit reports.

Staff                We estimated that in 27 (78.5 percent, totaling $1.1 million) of the 34 cases,
Misinterpretation    VHA workers’ compensation staff lacked the knowledge and understanding
of WCP               to properly apply FECA requirements and make job offers to medically able
Requirements         employees. Generally, physicians indicate employees’ work capacity to
                     either OWCP or VHA using the CA-17, “Duty Status Report.” This form
                     describes any work limitations, such as the number of hours the employee


 VA Office of Inspector General                                                                 13
                                  Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    can sit, stand, or walk. According to FECA, a specialist should assess the
                    CA-17 and follow through in writing with a suitable job offer of light duty,
                    as appropriate, and provide a copy to OWCP.

                    In multiple instances at one facility, specialists provided several different
                    reasons they did not make job offers, including cases being handled as part
                    of the reasonable accommodation process. However, waiting for a
                    reasonable accommodation to make a suitable job offer is not required as
                    part of the FECA job offer process. If a worker’s injury has been adjudicated
                    under FECA and the claimant is medically able to return to work, VA must
                    identify an employment opportunity and make a suitable job offer as part of
                    the return to work process. If the claimant refuses the job offer, OWCP is
                    required to suspend compensation.

                    Further, staff sometimes offered the excuse that Managed Care Advisors, a
                    VISN WCP case file review contractor, was managing cases, including
                    making job offers and obtaining updated medical evidence.3 However, in
                    such instances, the contractor’s only responsibility was to review the cases
                    and provide recommendations to the specialists, such as making a job offer
                    or obtaining updated medical evidence. Then, the specialists were
                    responsible for actually making suitable job offers and obtaining updated
                    medical evidence per the contractor’s recommendations.

                    Following are examples where VHA staff erred in not making job offers due
                    to misinterpreting WCP requirements.

                    	 In 2010 and 2011, second opinion exams showed a claimant with a foot
                       injury could return to light duty for 8 hours per day. Managed Care
                       Advisors recommended VHA offer a job to the injured worker, but WCP
                       specialists took no action to follow through on the recommendation as
                       required in 2010 and 2011. A specialist mistakenly thought that the
                       contractor was going to make the job offer. Consequently, this employee
                       with work capacity remained on VA’s chargeback rolls. Between
                       chargeback year 2010 and 2012 the employee received about $101,000 in
                       questionable compensation benefits.
                    	 June and September 2012 medical exams showed that an employee
                       claiming a knee injury was released to perform limited duty. In addition,
                       the employee told the physician that he could perform limited duty
                       work. The WCP specialist told us she did not know how to make a job
                       offer to the employee and therefore took no action. In chargeback year
                       2012, the employee received about $20,000 in questionable
                       compensation benefits because no effort was made to return the
                       medically able employee to work.


                    3
                      VHA contracted with Managed Care Advisors to review one VISN’s WCP case files and
                    aid specialists in WCP case management efforts.


VA Office of Inspector General                                                                      14
                                  Follow-Up Audit of VHA’s Workers’ Compensation Case Management


Insufficient Staff   We estimated that in 7 (21.5 percent, totaling $100,000) of the 34 cases
Resources            projected, VHA facilities lacked the staff needed to compile essential
                     documentation and maintain WCP case files with the information needed to
                     make return to work determinations.

                     In our 2004 and 2011 audit reports, we previously discussed this lack of
                     resources to effectively manage WCP case files. We recommended VHA
                     assign adequate staff to manage WCP cases. According to WCP officials at
                     headquarters, VHA has not implemented this recommendation because it is
                     not responsible for hiring WCP personnel in the field. Additionally, these
                     same officials informed us that WCP staffing is an issue that VA needs to
                     resolve.

                     VHA’s 2010 Human Resource Delivery Model, while dated, indicates that
                     each medical facility should maintain one dedicated WCP specialist per
                     1,200 full-time employees. However, for the 12 medical facilities in our
                     sample, VHA maintained an average ratio of about 0.8 WCP specialists per
                     1,200 full-time employees. Additionally, 9 (47.4 percent) of 19 specialists
                     we interviewed stated that WCP case management was a secondary
                     responsibility—they had collateral duties such as finger printing, processing
                     Personal Identity Verification Cards, and serving as Safety Officer.
                     Specialists indicated that if they could dedicate 100 percent of their time to
                     WCP, they could monitor cases more closely and potentially return
                     medically able employees to work expeditiously.

                     According to senior VA officials, the ratio of specialists to employees,
                     coupled with the specialists’ collateral duties, contributed to the inability to
                     manage the WCP cases effectively. Following are examples of missed
                     opportunities to make job offers and return employees to work due to an
                     inadequate number of staff.

                     	 In November 2012, a physician released an employee claiming a wrist
                        injury to return to work the same day of the medical release. However,
                        the specialist did not attempt to follow up on the claim or make a job
                        offer to return the employee to work due to a lack of time and competing
                        priorities. In chargeback year 2012, the employee received about
                        $83,000 in potential improper compensation benefits.
                     	 In January 2010, a physician provided medical evidence to release an
                        employee claiming an elbow injury to return to work that same month.
                        According to the specialist, because her primary focus was managing
                        only the newer WCP cases, she was not aware that the employee could
                        be returned to work. This employee was still on VA’s chargeback rolls
                        as of October 2013. In chargeback year 2012, the employee received
                        about $51,000 in improper compensation benefits.




VA Office of Inspector General                                                                    15
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


No Fraud            VHA still has not established a process for, or consistently devoted time to,
Detection           detecting WCP claims fraud while managing case files. In our 2011 audit,
                    we reported VHA had not established a fraud detection and referral process
                    and recommended that VHA develop such procedures. According to a VHA
                    official, as of October 2013, the administration did not implement our
                    recommendation because VHA was trying to fill its national WCP manager
                    position and was unable to dedicate the time necessary to establish a fraud
                    detection and referral process.

                    In 1999, to enhance VHA’s fraud detection efforts, the OIG issued the
                    Handbook for VA Facility Workers’ Compensation Program Case
                    Management and Fraud Detection (Report No. 9D2-G01-064,
                    April 14, 1999). This handbook contains key information and instructions to
                    aid individual VA facility WCP coordinators and specialists with day-to-day
                    WCP case management and fraud detection. The handbook also includes
                    worksheets to aid specialists in identifying potential fraud and provides
                    examples for fraud profiling.

                    Five of the claims in this current work included indicators of potential fraud.
                    We referred these cases to the OIG Office of Investigations. Establishing a
                    fraud identification and reporting process would be beneficial to reduce
                    fraudulent claims costs, not only for VHA but also for VA as a whole.

Conclusion          Similar to our 2011 audit, we are reporting that VHA needs to ensure
                    specialists are adequately monitoring WCP cases. Active case monitoring
                    helps ensure proper payments to eligible claimants until they are medically
                    able to return to work. Without oversight to ensure WCP case files are
                    complete with up-to-date medical reports, proper staff interpretation of
                    FECA requirements to make job offers, and sufficient staff resources to
                    manage cases, VHA is at risk of incurring costs for improper benefits made
                    to ineligible claimants capable of resuming professional duty.

                    Through an effective system of management controls to facilitate effective
                    case file management for an estimated 489 of the 793 active case files, VHA
                    could have put $15.4 million to better use during chargeback year 2012.
                    VHA could also potentially prevent as much as $76.8 million in
                    overpayments over the next 5 years. Further, had VHA ensured sufficient
                    staff resources and all specialists had the FECA knowledge, the specialists
                    would have been more equipped to consistently make suitable job offers, and
                    VHA could have returned an estimated 34 WCP claimants to work and
                    avoided $1.3 million in annual WCP compensation payments.

                    We estimated, from 7 years of historical costs, that VHA paid $2.3 million in
                    questionable compensation benefits to claimants who could have returned to
                    work. Due to the lack of case file monitoring VHA overlooked these
                    claimants. By returning claimants to work where possible in the future,
                    VHA could avoid paying $6.4 million over the next 5 chargeback years and


VA Office of Inspector General                                                                  16
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    put these funds to better use. Collectively, VHA could put an estimated
                    $83.3 million to better use over the next 5 chargeback years with enhanced
                    case monitoring and efforts to return medically able employees to work.

                    Recommendations

                    4.	 We recommended the Acting Under Secretary for Health implement
                        controls to ensure workers’ compensation staff who are responsible for
                        case management make job offers to medically able employees (repeat
                        recommendation from the 2004 and 2011 VA Office of Inspector General
                        audit reports).

                    5.	 We recommended the Acting Under Secretary for Health ensure medical
                        center directors assign adequate staff to manage Workers’ Compensation
                        Program cases (repeat recommendation from the 2004 and 2011 VA
                        Office of Inspector General audit reports).

                    6.	 We recommended the Acting Under Secretary for Health develop and
                        implement fraud identification and referral procedures (repeat
                        recommendation from the 2011 VA Office of Inspector General audit
                        report).

Management          The Acting Under Secretary for Health concurred with our findings and
Comments            recommendations and plans to complete all corrective actions by
                    May 29, 2015. VHA published a guidebook that provides steps on how to
                    address light duty and permanent job offers. VHA’s National WCP manager
                    plans to train facility WCP staff on how to make light duty and permanent
                    job offers. Further, VHA’s National WCP manager will coordinate with the
                    Office of the Deputy Under Secretary for Health for Operations and
                    Management to develop a memorandum that requires facility WCP staff to
                    evaluate medical documentation and make job offers to medically able
                    employees in accordance with VHA’s guidebook. The memorandum will
                    also remind VISN and facility directors of their responsibility to ensure
                    necessary resources by implementing staffing plans and appropriately
                    staffing the WCP office.

                    VHA’s National WCP manager completed a staffing assessment that
                    identifies the facilities that are not meeting the 1 to 1,200 full-time employee
                    equivalent ratio identified in the 2010 Human Resource Delivery Model.
                    Additionally, since August 2013, VHA’s National WCP Manager has
                    conducted nine compliance site visits and trained the VISN workers’
                    compensation coordinators on site visit protocols. During the site visits,
                    teams reviewed WCP case files and assessed factors, such as staffing levels
                    staff tenure, and training.

                    To address the lack of fraud identification and referral procedures, VHA
                    provides WCP facility staff two Websites to view two OIG reports—


VA Office of Inspector General                                                                   17
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    Protocol Package for VISN WCP Case Management and Fraud Detection
                    (Report No. 9D2-G01-002, April 14, 1999) and VA’s Handbook for VA
                    Facility Workers’ Compensation Program Case Management and Fraud
                    Detection (Report No. 9D2-G01-064, April 14, 1999). VHA plans to
                    develop a checklist of fraud indicators and provide training on identifying
                    potential fraud and making referrals. Lastly, VHA’s National WCP manager
                    will coordinate with the Office of the Deputy Under Secretary for Health for
                    Operations and Management to develop a memorandum that requires facility
                    WCP staff to assess claims, compare them to the developed checklists, and
                    complete referrals to the OIG’s Office of Investigations.




VA Office of Inspector General                                                               18
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


Appendix A          Background

FECA                The Federal Employee Compensation Act (FECA) provides compensation
Overview            and medical benefits to civilian employees of the Federal Government for
                    personal injuries or diseases sustained during performance of duty. FECA
                    also provides benefits to an employee’s dependents if the work-related injury
                    or disease results in the employee’s death.

OWCP                Currently, the Division of Federal Employees’ Compensation within the
Responsibilities    DOL’s OWCP administers the WCP. OWCP adjudicates claims and
                    manages ongoing cases. OWCP provides vocational rehabilitation to injured
                    employees and refers employees to medical specialists for second opinion
                    examinations. OWCP also assists agencies in returning injured employees to
                    work when they are medically able. OWCP makes benefit payments from
                    the Employees’ Compensation Fund and bills each employing agency
                    annually through a chargeback report. Each agency then reimburses the
                    fund, 2 years in arrears, through annual operating appropriations.

VHA                 Publication CA-810, Injury Compensation for Federal Employees, and
Responsibilities    related guidance outline VHA’s case management responsibilities. These
                    responsibilities include:

                    	 Ensuring that supervisors understand their responsibilities under FECA
                    	 Notifying the injured employees of their rights and obligations under
                       FECA
                    	 Initiating FECA claims timely by submitting claims to DOL within
                       10 days of the date of the employee’s signature
                    	 Initiating FECA claims accurately by ensuring the five basic elements of
                       a claim are present
                    	 Challenging or disputing questionable claims that do not include the five
                       basic elements
                    	 Monitoring the medical status of injured employees, and as soon as they
                       are medically able, helping them return to work—providing light or
                       modified work duties as appropriate

                    Figure 2 illustrates the basic claims process from when an incident occurs to
                    the point where OWCP adjudicates a claim.




VA Office of Inspector General                                                                  19
                                           Follow-Up Audit of VHA’s Workers’ Compensation Case Management


             Figure 2. Basic Claims Process from Incident to Claim Adjudication

      INCIDENT OCCURS                                              INCIDENT REPORTED 


                                                                                       NO               EMPLOYEE 
                                                                            WORK                     ADVISED TO SEEK 
                                                                           RELATED                   OUTSIDE MEDICAL 
                                                                                                       ATTENTION

                                                                     YES
                                                       EMPLOYEE REPORTS TO EMPLOYEE HEALTH 
                                                       ASISTS STUB RECORD & CASE NOTIFICATION 
                                                             SUPERVISOR COMPLETES 2162


                                                               YES                    NO
                                  EMPLOYEE RECEIVES                       VHA                           EMPLOYEE 
                                    BILL OF RIGHTS                      PHYSICIAN                        OBTAINS 
                                    NOTIFICATION                        SELECTED                     APPROVED CA‐16




        CLAIM FILED                                               INJURY WORK RELATED 


                                                       YES                                     YES
                                      MEDICAL                     EMPLOYEE COMPLETES                        LOST 
                                      EXPENSES                         CA‐1/CA‐2                            TIME 

                                                               SUPERVISOR COMPLETES    
                                                                     CA‐1/CA‐2
                                                                                                  Continuation of Pay (COP)
                                                              REVIEW FOR ACCURACY AND             is the continuance of regular
                                                                   ENTER DOL CODES                pay for up to 45 calendar
                                                                                                  days and is available for
                                                                                                  employees who have filed a
                                                             NO                                   CA-1 claim for work-related
                          CASE FILE TO EMPLOYEE                                                   traumatic injuries.
                             HEALTH FOLDER                            REPORTABLE                  20 CFR 10.200-10.224


                                CASE CLOSED 
                                                                     YES

                         EMAIL NOTICE TO AUSTIN                CASE TRANSMITED TO DOL 
                                                                                                           NO


                                                                                                                   EMPLOYEE 
                                                       NO                  YES         OWCP CASE 
                                                                                                                  RETURNS TO 
                          EMPLOYEE DISPUTES                      DOL                  MANAGEMENT 
                              DECISION/                      ADJUDICATES                                            WORK 
                           EMPLOYEE RETIRES                     CLAIM
                                                                                                               YES
                                                                                         TRANSISTIONAL DUTY            
                          DOL PROCESS                                                        FULL TIME




 Source: OIG-developed based on the 2006 VA WCP Strategic Plan and the 2004 Workers’ Compensation
 Guidebook




VA Office of Inspector General                                                                                                    20
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


Appendix B          Scope and Methodology

Scope               We conducted our audit work from January 2013 through April 2014. We
                    limited our review to VHA controls for accurate WCP claims initiation and
                    returning medically able employees to work. We focused on open and active
                    WCP claims that OWCP paid during chargeback year 2012 (from
                    July 1, 2011, through June 30, 2012), which represented the most current
                    audit data available.

Methodology         We evaluated the local processes and procedures WCP specialists used to
                    manage WCP claims by obtaining relevant documentation, such as employee
                    compensation forms and medical examination reports. We conducted case
                    file reviews on sample cases selected from 12 VA medical facilities (1 with
                    certainty and 11 randomly selected); however, we only visited 4 sites due to
                    the large number of sampled case files. Table 2 lists the four VA medical
                    facilities we visited:

                                  Table 2. VA Medical Facilities and Locations

                                       Facility Name                      Facility Location
                      VA North Texas VA Health Care System              Dallas, TX
                      Edward Hines, Jr. VA Hospital                     Hines, IL
                      VA San Diego Healthcare System                    San Diego, CA
                      Philadelphia VA Medical Center                    Philadelphia, PA
                      Source: VA OIG

                    We also interviewed VHA’s program manager and met with VISN
                    managers, medical facility officials, and WCP specialists.

                    Further, we reviewed and discussed each case exception with WCP
                    specialists and obtained their written agreement with the discrepancies
                    identified. We reviewed applicable Federal laws and regulations, prior VA
                    OIG and Government Accountability Office audit reports, and VA and VHA
                    policies related to WCP. We also assessed the implementation of
                    recommendations from our September 2011 audit report.

                    To assess whether specialists accurately initiated WCP claims, we examined
                    employee compensation forms and initial medical evidence to ensure the five
                    elements of a claim were met. To evaluate VHA’s return to work efforts, we
                    reviewed medical evidence available in the WCP case files and determined
                    whether the treating physicians documented work capacity. When updated
                    medical evidence was present indicating employees could work, we
                    examined the case files to identify documentation such as VHA or DOL



VA Office of Inspector General                                                                21
                                  Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    memos offering jobs to the employees. We then looked for signed job
                    acceptance letters from the employees.

                    To assess VHA’s effectiveness in identifying and reporting potential WCP
                    fraud, we developed a fraud review sheet listing fraud indicators, such as low
                    medical expenses and high compensation (70 percent or more of total
                    payments) and dual benefits.4 We used the review sheet to analyze WCP
                    cases when fraud indicators arose during our review. For example, when we
                    identified a potential dual benefits payment, we determined whether the
                    employee’s VA disability benefits increased because of his or her
                    work-related injuries.

Data Reliability    We used computer-processed data from DOL’s OWCP National Case File
                    Management System for our WCP claims sample selection. We compared
                    the universe of data to VA’s Workers’ Compensation Office of Safety and
                    Health Management Information System and did not identify discrepancies
                    in the data.

                    To test the reliability of this data, we compared WCP claimant data from the
                    system, such as case numbers, dates of injury, and dates of birth, to source
                    documentation from our sample of 152 WCP case files. We found no
                    significant discrepancies.

                    We also tested completeness of the computer-processed data by
                    nonstatistically selecting 40 hard copy files maintained at the medical
                    facilities and validating them against the universe of claims we generated
                    from the system. The number of cases selected was considered adequate and
                    we found no significant discrepancies. Thus, we concluded that the data were
                    sufficiently reliable for our audit objectives.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objectives. We conducted this performance audit in accordance with
                    generally accepted Government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




                    4
                      Dual benefits payments occur when an employee who is also a veteran inappropriately
                    receives concurrent WCP and VA compensation payments for the same injury.


VA Office of Inspector General                                                                        22
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


Appendix C          Statistical Sampling Methodology

Approach            To evaluate the extent to which VHA accurately initiated WCP claims and
                    returned WCP claimants to work, we selected a representative sample of
                    WCP open and active claims for review.

                    We considered a WCP claim to have an exception when:

                    	 VHA did not maintain a complete WCP claims file.
                    	 VHA did not accurately initiate the claim by ensuring it included the five
                       required elements, such as performance of duty and causal relationship.
                    	 VHA did not obtain updated medical evidence to support continued
                       benefits for the WCP claimed injury.
                    	 VHA did not make job offers to employees with work capacity.

                    We reviewed each resulting exception with WCP staff at each VA medical
                    facility we included in our audit. WCP staff demonstrated agreement with
                    the exceptions by signing case review sheets.

Population          VHA’s WCP population consisted of about 16,709 claims totaling about
                    $188 million during chargeback year 2012. These figures represent about
                    93 percent of VA’s 17,978 WCP claims totaling about $202 million. VA’s
                    annual program costs have increased 11 percent since our last audit—from
                    $182 million in 2010.

                    We limited our review to active claims filed on or after July 1, 2004, with
                    compensation payments of $10,000 or more through June 30, 2012. We also
                    used the following four status codes as additional parameters because VHA
                    had the largest number of cases on the daily roll, and VA and OWCP
                    recommended that VHA workers’ compensation specialists prioritize and
                    review cases with the remaining categories first.

                    	 Daily Roll. The WCP claimant’s initial anticipated period of disability is
                       unclear, or the disability is expected to continue for less than 60 to
                       90 days.
                    	 Periodic Roll. DOL is developing the case for reemployment potential
                       or to determine whether the employee’s continued disability resulted
                       from workplace injury. WCP cases remain in Periodic Roll status until
                       DOL determines future entitlement.
                    	 Periodic Roll Loss of Wage Earning Capacity. The WCP claimant has
                       returned to work with some loss of actual earnings or a reduction in
                       benefits to reflect partial earning capacity.
                    	 Periodic Roll No Wage Earning Capacity. DOL determined that the
                       claimant is unable to work and has no wage earning capacity.


VA Office of Inspector General                                                                23
                                   Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                    The remaining WCP claims were closed or not eligible to be sampled and
                    were not included in our audit. Our WCP audit universe was comprised of
                    793 claims. Table 3 provides a breakout of the types of claims.

                                  Table 3. Types of Workers’ Compensation Claims

                      Total VHA Cases on 2012 Chargeback Rolls                           16,709

                      Closed claims on the 2012 chargeback report                         (4,050)

                      Claims with less than $10,000 compensation                          (9,153)

                      Claims without the four status codes                                  (538)1

                      Claims filed prior to July 1, 2004                                  (2,175)2

                                  Total in Audit Universe                                    793
                      Source: DOL OWCP 2012 Chargeback Report
                      Note 1: We excluded claims without the four status codes because VA and OWCP
                      recommended that VHA workers’ compensation specialists first prioritize and review
                      cases using the status codes of DR (Daily Roll), PR (Periodic Roll), (PW) Periodic Roll
                      Loss of Wage Earning Capacity, and (PN) Periodic Roll No Wage Earning Capacity.
                      Note 2: During our discussion with the DOL OWCP, we agreed to limit our review to
                      cases started in chargeback year 2005—July 1, 2004, forward—which was the
                      chargeback year DOL OWCP deployed its electronic WCP case file management
                      system.

Sampling            We conducted a two-stage random sample of all claims identified in the
Design              WCP population. In the first stage, we selected one VA medical facility with
                    certainty (North Texas VA Health Care System) as part of our pre-sampling
                    review to test our methodology. We ultimately selected 12 facilities for
                    inclusion in our sample. The other 11 VA medical facilities were randomly
                    selected using probability proportional to the total number of open WCP
                    claims maintained at each facility. This helped ensure that facilities with the
                    largest number of WCP claim files had a higher probability of selection.

                    In the second stage, we selected the WCP cases we would review at each
                    sample facility. We developed a statistical sample of 152 claims using three
                    parameters—WCP claims filed on or after July 1, 2004; total compensation
                    benefits paid of about $10,000 or more during chargeback year 2012 (from
                    July 1, 2011, through June 30, 2012); and WCP cases that DOL assigned one
                    of the four status codes of DR, PR, PW, PN (see Table 2, Note 1). We
                    removed five WCP cases from the eligible WCP population where OIG had
                    open investigations.

                    Table 4 lists the 11 VA medical facilities randomly selected.




VA Office of Inspector General                                                                                  24
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                                   Table 4. VA Medical Facilities and Locations

                                       Facility Name                      Facility Location

                      Edward Hines, Jr. VA Hospital                      Hines, IL
                      VA San Diego Healthcare System                     San Diego, CA
                      Philadelphia VA Medical Center                    Philadelphia, PA
                      Canandaigua VA Medical Center                     Canandaigua, NY
                      Atlanta VA Medical Center                         Decatur, GA
                      Chillicothe VA Medical Center                     Chillicothe, OH
                      Tomah VA Medical Center                           Tomah, WI
                      Cheyenne VA Medical Center                        Cheyenne, WY
                      Albany Stratton VA Medical Center                 Albany, NY
                      Wm. Jennings Bryan Dorn VA Medical Center         Columbia, SC
                      VA Northern California Health Care System         Mather, CA
                      Source: VA OIG

Weights             We calculated estimates in this report using weighted sample data. Sampling
                    weights are computed by taking the product of the inverse of the
                    probabilities of selection at each stage of sampling. We used these weights
                    to compute population estimates from the sample findings. To avoid any
                    sampling bias, we adjusted the sample result weights so that weighted
                    sample totals were equal to known population totals for the counts and costs
                    of claims.

Projections         From our sample review, we identified 95 out of 152 case files with at least
and Margins of      one exception for inaccurate claims initiation, incomplete case files, and
Error
                    inadequate monitoring for return to work. We projected the sample results
                    across the audit universe of 793 claims cases to develop estimates of counts
                    and costs for each exception type.

                    The margins of error and confidence intervals are indicators of the precision
                    of the estimates. If we repeated this audit with multiple samples, the
                    confidence intervals would differ for each sample but would include the true
                    population value 90 percent of the time. Table 5 represents the midpoint
                    projections for all the estimates.




VA Office of Inspector General                                                                25
                                                                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


          Table 5. Midpoint Projections of Sample Results for the Workers’ Compensation Program Audit Universe
                                                                          (in millions)
                                                                                             Projected                             Projected
                                                   Sample     Projected     Projected                           Projected Past
              Type of Exception                                                               Annual                                Future1
                                                    Size       Count         Percent                            Compensation
                                                                                           Compensation                          Compensation
   Finding 1
   Inaccurate Initiation                                         56           7.0%              $2.4                 NA             $11.9
                                                   10
   Missing and Insufficient Initial Medical
   Total Finding 1                                 10            56           7.0%              $2.4                 NA             $11.9
   Finding 2                                                    455          57.4%             $15.4                 NA             $76.8
                                                   70
   Incomplete Case Files
   Missing Updated Medical                         22           125          15.7%              $3.8                 NA             $19.0
   Missing EN-1032                                 48           331          41.7%             $11.6                 NA             $57.8
   Finding 2
                                                                 34           4.3%              $1.3                 $2.3            $6.4
   No Job Offer                                    15
                                                                             78.5%                                   $2.0            $5.7
   Requirement Misinterpretation                   12           27                             $1.1
   Insufficient Resources                           3            7           21.5%                                   $0.3            $0.7
                                                                                               $0.1
    Total Finding 2                                85           489          61.7%             $16.7                 $2.3           $83.3
                        2
          Grand Total                              95           545          68.7%             $19.0                 $2.3           $95.2
   Source: Analysis of our statistical sample results
   Note 1: Future compensation is the annual compensation multiplied by five and represents the 5-year projection.
   Note 2: Columns may not sum due to rounding.




VA Office of Inspector General                                                                                                                  26
                                                                                Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                                             Table 6 represents the midpoint and a lower/upper limit respectively of the sample estimates
                                             (projections) and associated margins of error regarding attributes. The lower/upper limits form
                                             90 percent confidence intervals around the mid-point estimates. The margins of error and
                                             confidence intervals are indicators of the precision of the estimates.

                              Table 6. Lower/Upper Limits of Sample Projections and Margins of Error
                                                       ----- Attributes ----
                                                                              Projected   Projected                           Projected   Projected
                                                                  Projected    Count       Count                  Projected
                                                     Projected                                        Projected                Percent     Percent
                                          Sample                   Count                                           Percent
          Type of Exception                           Count                    Lower       Upper       Percent                 Lower       Upper
                                           Size                    Margin                                          Margin
                                                     Midpoint                   Limit       Limit     Midpoint                  Limit       Limit
                                                                  of Error                                        of Error
                                                                              (90% CI1)   (90% CI1)                           (90% CI1)   (90% CI1)

 Finding 1
 Inaccurate Initiation                       10           56           31        24          87         7.0%        3.9%         3.1%      10.9%
 Missing and Insufficient Initial
 Medical
 Total Finding 1                             10           56           31        24          87         7.0%        3.9%        3.1%       10.9%
 Finding 2
                                             70          455           58       397         514        57.4%        7.4%       50.1%       64.8%
 Incomplete Case Files
 Missing Updated Medical                     22          125           51        73         176        15.7%         6.5%        9.3%       22.2%
 Missing EN-1032                             48          331           48       283         378        41.7%         6.0%       35.7%       47.7%

 Finding 2
                                             15           34           19        15          53         4.3%        2.4%        1.9%          6.7%
 No Job Offer
                                             12           27           15        12          42        78.5%        19.7%       58.8%       98.2%
 Requirement Misinterpretation
                                                                                   2
 Insufficient Resources                       3            7            8         3          15        21.5%        19.7%        1.8%       41.2%
                                             85          489           55       434         544        61.7%        6.9%       54.8%       68.6%
 Total Finding 2
       Grand Total                           95          545           61       484         606         68.7%       7.7%       61.1%       76.4%
  Source: Analysis of our statistical sample results
  Note 1: CI = Confidence Interval 

  Note 2: True lower limits cannot be less than the sample finding.

  Note 3: Columns may not sum due to rounding.



VA Office of Inspector General                                                                                                                        27
                                                                                    Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                                                Table 7 represents the midpoint and a lower/upper limit respectively of the sample estimates
                                                (projections) and associated margins of error regarding compensation. The lower/upper limits
                                                form 90 percent confidence intervals around the mid-point estimates. The margins of error and
                                                confidence intervals are indicators of the precision of the estimates.

                                               Table 7. Lower/Upper Limits of Sample Projections and Margins of Error
                                                                ----- Compensation (in millions) ----
                                                                                   Projected    Projected                           Projected    Projected
                                                                       Projected                                        Projected
                                                          Projected                 Annual       Annual     Projected                 Past         Past
                                               Sample                   Annual                                            Past
            Type of Exception                              Annual                   Lower        Upper        Past                   Lower        Upper
                                                Size                    Margin                                          Margin
                                                          Midpoint                   Limit        Limit     Midpoint                  Limit        Limit
                                                                       of Error                                         of Error
                                                                                   (90% CI1)    (90% CI1)                           (90% CI1)    (90% CI1)

Finding 1
Inaccurate Initiation                             10         $2.4        $1.6        $0.8         $4.0        N/A         N/A         N/A          N/A
Missing and Insufficient Initial Medical
Total Finding 1                                   10         $2.4        $1.6        $0.8         $4.0        N/A         N/A         N/A          N/A
Finding 2
                                                  70        $15.4        $3.2       $12.2        $18.6        N/A         N/A         N/A          N/A
Incomplete Case Files
                                                  22         $3.8        $1.5        $2.3         $5.3        N/A         N/A         N/A          N/A
Missing Updated Medical
Missing EN-1032                                   48        $11.6        $3.0        $8.6        $14.5        N/A         N/A         N/A          N/A
Finding 2
                                                  15         $1.3        $0.8        $0.5         $2.1        $2.3        $1.5        $0.8         $3.9
No Job Offer
                                                  12         $1.1        $0.7        $0.4         $1.9        $2.0        $1.5        $0.6         $3.5
Requirement Misinterpretation
                                                                                            2                                                2
Insufficient Resources                             3         $0.1        $0.1        $0.1         $0.3        $0.3        $0.3        $0.2         $0.6
Total Finding 2                                   85        $16.7        $3.1       $13.5        $19.8        $2.3        $1.5        $0.8         $3.9
                                                  95        $19.0        $3.3       $15.8        $22.3        $2.3        $1.5        $0.8         $3.9
Grand  Total
 Source: Analysis of our statistical sample results
  Note 1: CI = Confidence Interval 

  Note 2: True lower limits cannot be less than the sample finding.

  Note: 3: Columns may not sum due to rounding.




  VA Office of Inspector General                                                                                                                          28
                                  Follow-Up Audit of VHA’s Workers’ Compensation Case Management


Appendix D             Potential Monetary Benefits in Accordance With
                       Inspector General Act Amendments



                                                                Better Use of     Questioned
      Recommendation             Explanation of Benefits
                                                                   Funds            Costs


                                 Estimated WCP costs that
                                 could be potentially
                                 avoided over the next 5
                1, 2                                             $11,900,000              $0
                                 chargeback years through
                                 implementing standard case
                                 management procedures

                                 Estimated WCP costs that
                                 could be potentially
                  4	             avoided over the next 5         $76,800,000              $0
                                 chargeback years through
                                 improved case management

                                 Estimated WCP costs that
                                 could be potentially
                                 avoided over the next 5
                  5                                               $6,400,000              $0
                                 chargeback years through
                                 returning medically able
                                 employees to work

                                 Estimated past WCP
                                                                          $0     $2,300,000
                                 payments


                                                      Total      $95,200,000     $2,300,000




VA Office of Inspector General                                                                 29
                                         Follow-Up Audit of VHA’s Workers’ Compensation Case Management


Appendix E               Acting Under Secretary for Health Comments


                Department of
                Veterans Affairs
                                                                 Memorandum
        Date:       June 10, 2014

       From:        Acting Under Secretary for Health (10)

        Subj:
                    OIG Draft Report, Follow-Up Audit of VHA’s Workers’ Compensation
                    Case Management (2011-003230R6-0017) (VAIQ 7479914)


         To:        Assistant Inspector General for Audits and Evaluations (52)


                1. 	 Thank you for the opportunity to review the draft report, Follow-Up Audit of VHA’s
                     Workers’ Compensation Case Management.

                2. 	 I have reviewed the draft report and concur with the report’s recommendations.
                     Attached is the Veterans Health Administration's corrective action plan for
                     recommendations 1 through 6.

                3. 	 If you have any questions, please contact Karen M. Rasmussen, M.D., Director,
                     Management Review Service (10AR), at (202) 461-6643 or email
                     VHA10ARMRS2@va.gov.




                    Robert L. Jesse, MD, PhD

                    Attachment




VA Office of Inspector General                                                                            30
                                     Follow-Up Audit of VHA’s Workers’ Compensation Case Management


                                                                                               Attachment

                              VETERANS HEALTH ADMINISTRATION (VHA)


                                                Action Plan 


     OIG Draft Report, Follow-Up Audit of VHA’s Workers’ Compensation Case Management 


Date of Draft Report: May 8, 2014


Recommendations/                           Status                          Completion
Actions                                                                    Date

Recommendation 1. We recommend the Under Secretary for Health establish Workers’ Compensation
Program case file documentation standards so that specialists ensure case files are complete (repeat
recommendation from the 2004 and 2011 VA OIG audit reports).

VHA Comments

Concur.

The VHA National Workers’ Compensation Program (WCP) has established WCP case file
documentation standards to ensure specialists complete case files.
   1. 	 In July 2013, WCP published the VHA Workers’ Compensation Guidebook. Section 2.6.1, Files
        Maintenance, addresses case file documentation standards and identifies the types of
        documents that are required and where they should be placed within a six-part case file.

          Status: Completed                                     Completion Date: July 2013 


          To complete this action, VHA will provide documentation of: 


             The VHA Workers’ Compensation Guidebook (see Attachment 1). 


   2. 	 In April 2014, WCP trained facility WCP staff on Case File Management and File Maintenance
        through a WC Case Review Lync Meeting. The training discussed case file documentation
        standards, as well as the six-part folder option for storing appropriate documents.

          Status: Completed 	                                   Completion Date: April 2014

          To complete this action, VHA will provide documentation of:

             Training presentation material for Case File Management training (see Attachment 2).
             Participant list and evaluation ratings of training presented (see Attachment 3).

   3. 	 WCP is in the process of developing a Program Bulletin, including a case file review checklist
        that will provide instruction regarding the types, frequencies, and appropriate documents
        necessary for proper case management. This standardized checklist will allow the facility WCP
        staff to understand what is required, to obtain necessary case file documentation and to record
        documents as they are entered into a case file. This will assist WCP staff to ensure that case file
        documentation is complete.

          Status: In progress 	                     Completion Date: September 30, 2014

          To complete this action, VHA will provide documentation of:


VA Office of Inspector General                                                                          31
                                      Follow-Up Audit of VHA’s Workers’ Compensation Case Management


              Program Bulletin to all WCP staff on case file documentation requirements.

              Copy of the Case File Review Checklist and Tracking Sheet. 


   4. 	 WCP will collaborate with the Office of the Deputy Under Secretary for Health for Operations and
        Management (DUSHOM) to develop a memorandum to the Veterans Integrated Service Network
        (VISN) and facility Directors mandating the implementation of the VHA WC Guidebook
        processes.

          Status: In progress 	                     Completion Date: September 30, 2014

          To complete this action, VHA will provide documentation of:

          	   DUSHOM memorandum to VISN and facility Directors mandating the implementation of the
               VHA WC Guidebook processes.

Recommendation 2. We recommend the Under Secretary for Health establish a directive mandating
Workers’ Compensation Program specialists implement the workers’ compensation guidebook to ensure
specialists question the validity of claims lacking adequate supporting evidence.

VHA Comments

Concur.

   1. 	 WCP implemented the VHA WC Guidebook in July 2013. Section 4.1, Basic Requirements of a
        Claim, provides WCP staffs with detailed information about each of the five elements required for
        OWCP to accept a workers’ compensation claim. Section 4.2, WCP Staff Responsibility,
        describes the regulatory requirement set forth in 20 CFR 10.117 for an employer who has reason
        to disagree with any aspect of a claimant’s evidence package. Section 6.5, Questionable Claims,
        also outlines general steps to evaluate the validity of a claim.

          Status: Completed 	                                Completion Date: July 2013

          To complete this action, VHA will provide documentation of:

          	   The VHA Workers’ Compensation Guidebook (see Attachment 1).

   2. 	 On August 27, 2014, WCP will train facility WCP staff on the appropriate processes to evaluate
        the validity of claims and challenge the five requirements of a claim appropriately during a WC
        Case Review Lync Meeting.

          Status: In progress 	                     Completion Date: September 30, 2014

          To complete this action, VHA will provide documentation of:

              Training presentation material for Questionable Claims Training.

              Participant list and evaluation ratings of training presented. 


   3. 	 WCP will collaborate with the DUSHOM to develop a memorandum to VISN and facility Directors
        that includes the requirement for VHA facility WCPs to ensure that specialists question the
        validity of claims lacking adequate supporting evidence.

          Status: In progress 	                     Completion Date: September 30, 2014

          To complete this action, VHA will provide documentation of:




VA Office of Inspector General                                                                        32
                                      Follow-Up Audit of VHA’s Workers’ Compensation Case Management


          	   DUSHOM memorandum to VISN and facility Directors.

   4. 	 VHA will draft a directive that ensures that procedures for evaluating the validity of claims and
        challenging the five requirements of a claim are performed appropriately and become official
        requirements for the program.

          Status: In Progress                       Completion Date: May 29, 2015


          To complete this action, VHA will provide documentation of: 


              A draft directive that has received concurrence by the VA Office of General Counsel.


Recommendation 3. We recommend the Under Secretary for Health establish a structure with a clear
chain of command to ensure workers’ compensation compliance with case management requirements,
oversight, and policy enforcement.

VHA Comments

Concur.

WCP is taking steps to establish a structure with a clear chain of command to ensure workers’
compensation compliance with case management, oversight, and policy enforcement is documented and
communicated throughout VHA.

   1. 	 WCP will collaborate with the DUSHOM to develop a memorandum to VISN and facility Directors
        that identifies the roles and responsibilities of the VHA National WCP with respect to policy
        development, communication, training, program oversight, and compliance enforcement.

          Status: In progress                   Completion Date: September 30, 2014


          To complete this action, VHA will provide documentation of: 


              DUSHOM memorandum to VISN and facility Directors. 


Recommendation 4. We recommend the Under Secretary for Health implement controls to ensure
workers’ compensation staff who are responsible for case management make job offers to medically able
employees (repeat recommendation from the 2004 and 2011 VA OIG audit reports).

VHA Comments

Concur.

VHA National WCP is taking steps to ensure that WCP staff responsible for case management make job
offers to medically able employees.

   1. 	 WCP published the VHA WC Guidebook in July 2013. Section 6.8, Return to Work; and Section
        9, Permanent Job Offers, address light duty assignment and permanent position job offers
        respectively.

          Status: Complete 	                             Completion Date: July 2013

          To complete this action, VHA will provide documentation of:




VA Office of Inspector General                                                                         33
                                      Follow-Up Audit of VHA’s Workers’ Compensation Case Management


          	   The VHA Workers’ Compensation Guidebook (see Attachment 1).

   2. 	 On July 23, 2014, WCP will train facility WCP staff on light duty assignment processes during a
        WC Case Review Lync Meeting. An additional training for facility WCP staff on the development
        of permanent job offers is scheduled for July 24, 2014.

          Status: In progress 	                          Completion Date: September 30, 2014

          To complete this action, VHA will provide documentation of:

              Training presentation material for Light Duty Assignment Training. 

              Training presentation material for Permanent Job Offers.

              Participant lists and evaluation ratings of training presented.


   3. 	 WCP will collaborate with the DUSHOM to develop a memorandum to VISN and facility Directors
        that includes the requirement for VHA facility WCPs to evaluate medical documentation and
        perform appropriate return-to-work actions in accordance with the VHA WC Guidebook.

          Status: In progress               Completion Date: September 30, 2014

          To complete this action, VHA will provide documentation of:

          	   DUSHOM memorandum to VISN and facility Directors

Recommendation 5. We recommend the Under Secretary for Health ensure medical center directors
assign adequate staff to manage Workers’ Compensation Program cases (repeat recommendation from
the 2004 and 2011 VA OIG audit reports).

VHA Comments

Concur.

WCP is taking steps to ensure that facility Directors assign adequate staff to manage the facility WCP
cases.

   1. 	 WCP has conducted a staffing analysis that identifies VHA facilities that are not meeting the
        1:1200 FTEE ratio outlined in the Human Resources Delivery Model (HRDM) 2010 approved by
        the Under Secretary for Health.

          Status: Completed	                         Completion Date: October 2013

          To complete this action, VHA will provide documentation of:

          	   VHA Facilities with Understaffed WCP Using HRDM2010 Model (see Attachment 4).

   2. 	 WCP has conducted 9 of 13 compliance site visits since August 2013. On December 5 and 11,
        2013, VISN WC Coordinators were trained on the protocols of conducting site visits and were
        asked to complete two site visits each in Fiscal Year 2014. Funding and sites to be visited were
        provided by VHA National WCP. The facilities selected were those having the highest
        Chargeback Costs in chargeback year 2013. An assessment of staffing based on the HRDM
        2010 Staffing Model is included in these site visits and includes other factors such as backlog,
        tenure and training of the WC specialist and other situational factors to be assessed.
        Recommendations regarding staffing are included in each site visit report sent to the VISN and
        facility Director from the DUSHOM along with a request for VISN WC Coordinators to monitor
        actions taken at the facility on all findings identified in the audit.



VA Office of Inspector General                                                                       34
                                      Follow-Up Audit of VHA’s Workers’ Compensation Case Management



          Status: In progress     	           Completion Date: May 29, 2015
          To complete this action, VHA will provide documentation of:

          	   Site Visit Schedule (see Attachment 5).
          	   Presentation on VISN Site Visit Protocol (see Attachment 6).
          	   Screen Shot of the VHA WCP SharePoint-Site Visits (see Attachment 7).
          	   Example of a Site Visit Report which includes staffing assessments and recommendations
               (see Attachment 8).

   3. 	 WCP will collaborate with the DUSHOM to include in the DUSHOM memorandum, a reminder to
        VISN Directors of their responsibility under VHA Directive 2009-055, Staffing Plans, for providing
        oversight to ensure the provision of necessary resources for facilities to implement appropriate
        staffing plans. The DUSHOM memorandum will also remind facility Directors of their
        responsibility to provide necessary resources to implement the staffing plans which include
        appropriate staffing of the WCP office in accordance with HRDM 2010 model.

          Status: In progress 	                            Completion Date: September 30, 2014

          To complete this action, VHA will provide documentation of:

          	   DUSHOM memorandum to VISN and facility Directors.

Recommendation 6. We recommend the Under Secretary for Health develop and implement fraud
identification and referral procedures (repeat recommendation from the 2011 VA OIG audit report).

VHA Comments

Concur.

WCP has taken steps to ensure that procedures for evaluating claims and providers for potential red
flags, making referrals to OIG field offices when appropriate are developed and implemented,
communicated and trained; and that oversight is provided to ensure that VHA facility WCP staffs are
following these standards.

   1. 	 WCP references the Protocol Package for VISN WCP Case Management and Fraud Detection
        (Report No.: 9D2-G01-002, Date: April 14, 1999) in Section 10.7, Office of Inspector General, of
        the VHA WC Guidebook, on the CEOSH Intranet WCP site, and on the VHA WC SharePoint site
        as a guide to VISN WC Coordinators to implement processes for identifying and referring
        potentially fraudulent cases to the OIG for resolve.

          Status: Completed	                               Completion Date: April 2014

          To complete this action, VHA will provide documentation of:

          	   The VHA Workers’ Compensation Guidebook, Section 10.7 (see Attachment 1).
          	   Screenshot of the CEOSH Intranet WCP site updated April 2014 (see Attachment 10).
          	   Screenshot of the VHA WC SharePoint Supplemental Guidance website for Fraud, Waste,
               and Abuse (see Attachment 11).

   2. 	 WCP references the VA OIG’s Handbook, VA Facility Workers’ Compensation Program Case
        Management and Fraud Detection (Report No. 9D2 G01 064, April 14, 1999) on the CEOSH
        Intranet WCP site, as well as the VHA WC SharePoint site as a guide for identifying and referring
        potentially fraudulent cases to the OIG for resolve.


VA Office of Inspector General                                                                         35
                                   Follow-Up Audit of VHA’s Workers’ Compensation Case Management


       Status: Completed	                                Completion Date: April 2014

       To complete this action, VHA will provide documentation of:

           Screenshot of the CEOSH Intranet WCP site updated April 2014 (see Attachment 10).
           Screenshot of the VHA WC SharePoint Supplemental Guidance website for Fraud, Waste,
            and Abuse (see Attachment 11).

   3. 	 WCP plans to develop a more streamlined checklist that can be used in every case at regular
        intervals to ensure that potential fraud can be identified. In September 24, 2014, WCP will
        provide VHA facility WCP staff training on potential fraud identification and referrals through a
        WC Case Review Lync Meeting.

       Status: In progress 	                     Completion Date: January 31, 2015

       To complete this action, VHA will provide documentation of:

           Copy of the “OIG Red Flags Checklist for Workers’ Compensation Cases.”
           Training presentation material for Identification and Referral of Potential Fraud, Waste, and
            Abuse training.
           Participant list and evaluation ratings of training presented.

   4. 	 WCP will collaborate with the DUSHOM to develop a memorandum to VISN and facility Directors
        that includes the requirement for VHA facility WCPs to evaluate claims and medical providers
        against red flag checklists and perform appropriate referral actions to OIG in accordance with the
        VA OIG’s Handbook for VA Facility Workers’ Compensation Program Case Management and
        Fraud Detection (Report No. 9D2 G01 064, April 14, 1999).

       Status: In progress 	                     Completion Date: September 30, 2014

       To complete this action, VHA will provide documentation of:

       	   DUSHOM memorandum to VISN and facility Directors

Veterans Health Administration
May 2014




VA Office of Inspector General                                                                         36
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	              For more information about this report, please
                                                 contact the Office of Inspector General at
                                                 (202) 461-4720.

                      Acknowledgments            Mario Carbone
                                                 Marilyn Barak
                                                 Orlan Braman
                                                 Chau Bui
                                                 Ramon Figueroa
                                                 Sherry Fincher
                                                 Lee Giesbrecht
                                                 Glen Gowans
                                                 John Houston
                                                 Heather Jones
                                                 Crystal Markovic
                                                 Jamie McFarland
                                                 Larrynnee Pierre
                                                 Charanpreet Singh




VA Office of Inspector General                                                               37
                                 Follow-Up Audit of VHA’s Workers’ Compensation Case Management


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               38
